              DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                                                          Office of Inspector General



                                                                                                                               Washington, D.C. 20201




TO: 	                  Donald M. Berwick, M.D.
                       Administrator
                       Centers for Medicare & Medicaid Services

                                      /S/
FROM:                  Stuart Wright
                       Deputy Inspector General
                         for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Payments/or Medicare Part B Services During
           Non-Part A Nursing Home Stays in 2008, OEI-06-07-00580


This memorandum report provides information regarding the extent to which Medicare paid for
Part B services during non-Part Al nursing home 2 stays (hereinafter referred to as non-Part A
stays) in 2008. We used resident assessment data from the Minimum Data Set (MDS) to identify
all nursing home stays nationwide during 2008 and reviewed Part B claims that occurred during
non-Part A stays.

SUMMARY

This study is part of the Office oflnspector General 's (OIG) activities to address section 313(d) of
the Medicare, Medicaid, and SCHIP Benefits Improvement and Protection Act of 2000 (BIPA).3
BIPA required the Secretary of Health & Human Services, through OIG, to monitor
Part B payments for items and services fumished to nursing home residents during stays not
covered by Part A to guard against excessive services. To facilitate identification of areas where
such vulnerability may occur, this study provides an overview of Part B services that occurred
during non-Part A stays. Insights into payment and utilization pattems, as well as geographic
differences, may suggest possible areas for further review by OIG and the Centers for Medicare &
Medicaid Services (CMS).




I Nursing home stays not paid for by Part A constitute non-Part A stays. Part A covers posthospital skilled nursing facility (SNF) care to eligible 

benefi ciaries for up to 100 days in SNFs, during which Part A will pay for most services as part of the nursing home 's daily rate. After the 

100 days or if the beneficiary does not qualify for a Part A stay, Part B may provide coverage for some services. 

2 For purposes of thi s evaluation, the term "nursing home" refers to any nursing home regardless of primary payer (e.g., Medicare, Medicaid, or 

private resources). 

3 P.L. 106-554. 





OEI-06-07-00580                    Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 2 – Donald M. Berwick, M.D.


We found that Medicare paid $4.9 billion for Part B services during non-Part A stays in 2008.
Three service categories, therapy services, evaluation and management, and major and minor
medical procedures, made up 58 percent of the total payment. In addition, Part B services were
rendered in a variety of places, with 54 percent of payments for services rendered inside nursing
homes and 46 percent of payments for services rendered outside of nursing homes
(e.g., outpatient hospitals and physician offices).

On average, Medicare paid $16.75 per day per beneficiary for Part B services across all service
categories and all beneficiaries. However, the average varied widely across service categories
and States in which the services occurred; the highest average daily payments were for dialysis
services and services in Louisiana. Examining average daily payments across nursing homes,
we found that payments to some nursing homes exceeded three times the national average daily
payment within certain service categories, most prominently drugs and biologicals and durable
medical equipment, prosthetics, orthotics, and supplies (DMEPOS).

The variation and unusual patterns found in this review raise concerns of potential fraud, waste,
and abuse. Therefore, items and services billed under Part B for nursing home residents during
non-Part A stays continue to warrant specialized monitoring. To facilitate such monitoring, we
plan to undertake additional reviews and in-depth analyses focusing on specific service types.

BACKGROUND

The BIPA requirement for special monitoring reflects vulnerabilities with Medicare payments for
Part B services during non-Part A stays that generally do not exist for the same services provided
during Part A stays. During a Part A stay, Medicare requires consolidated billing: nursing homes
must arrange for and submit all Medicare claims for the services that their residents receive, 4
including services and supplies delivered by providers other than the nursing home. 5 For example,
if a Medicare beneficiary receives a wheelchair and oxygen tanks from different suppliers
following a hospital stay, Medicare requires the nursing home to collect, consolidate, and submit
bills for payment under Part A. Once paid by Medicare, the nursing home is responsible for
reimbursing the suppliers their portion of the payment. Consolidated billing ensures that the
nursing home is aware of services provided to its residents, which helps it to coordinate care for
beneficiaries and to safeguard against excessive services by providers.

When Part A does not cover a Medicare beneficiary’s nursing home stay (a non-Part A stay),
individual providers, rather than the nursing home, may bill Medicare directly for Part B services,


4
    Social Security Act, §§ 1862(a)(18) and 1842(b)(6)(E).
5
  Pursuant to Section 1888(e)(2)(A)(ii) and (iii) of the Social Security Act, services excluded from consolidated billing requirements during
Part A covered SNF stays include physicians’ professional services, certain dialysis-related services, certain drugs, and certain ambulance
services. Section 1888(e)(2)(A)(ii) of the Social Security Act specifies that physical therapy, occupational therapy, and speech-language
pathology services for SNF residents are always subject to consolidated billing requirements regardless of whether they are furnished by (or
under the supervision of) a physician or other health care professional. A full listing of excluded services may be accessed at
https://www.cms.gov/SNFPPS/05_ConsolidatedBilling.asp.




OEI-06-07-00580                     Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 3 – Donald M. Berwick, M.D.


creating particular vulnerabilities for program integrity. For example, although nursing homes are
likely aware of the services provided to their residents, they may never see the claims submitted to
Medicare by outside providers and therefore not have an opportunity to verify the accuracy of
claims.

Related Work
Several recent OIG reports found improper payments and other vulnerabilities for Part B services
that occurred during non-Part A stays. For example, one report found improper payments of
$30 million made by Part B for durable medical equipment during non-Part A stays in 2006. 6
Suppliers incorrectly listed these items for use in beneficiaries’ homes when usage actually
occurred in the nursing home, a place of service not covered by Part B unless the nursing home
qualifies as the beneficiary’s home. Because these nursing homes were providing primarily skilled
care or rehabilitation, they could not be considered the beneficiaries’ homes. Additionally, OIG
found problems related to coding, medical necessity, and maintaining adequate documentation for
enteral nutrition therapy services 7 and mental health services, 8 resulting in $39 million and
$74 million, respectively, in improper payments during 2006.

METHODOLOGY

Scope
We identified Medicare payments for, and beneficiaries’ utilization of, Part B services during
non-Part A stays in 2008. We did not examine (1) any Part B service that occurred during a
Part A covered stay or (2) the medical appropriateness of any Part B service.

Identification of Part B Services During Non-Part A Stays
We utilized several databases obtained from CMS to identify Part B payments for services during
non-Part A stays. These databases included the MDS; the Online Survey, Certification, and
Reporting System; the Enrollment Database; and the National Claims History. (See Appendix A
for a detailed description of the databases and the methods used to identify Part B services during
non-Part A stays in 2008.)

Service Categorization
To facilitate analysis of all services paid for by Part B during non-Part A stays, we developed a
comprehensive categorization of services by modeling service categories after the American
Medical Association’s Current Procedural Terminology code delineations and the Berenson-Eggers
Type of Service system. (See Appendix B for further details regarding the creation and structure of
the categorization.) This categorization organized the more than 14,000 Healthcare Common
Procedure Coding System (HCPCS) codes using a structure that resulted in 14 broad service
categories. The categorization also included a category of “other” services that we were unable to


6
    OIG, Part B Services During Non-Part A Nursing Home Stays: Durable Medical Equipment (OEI-06-07-00100), July 2009.
7
    OIG, Medicare Part B Services During Non-Part A Nursing Home Stays: Enteral Nutrition Therapy (OEI-06-07-00090), June 2010.
8
    OIG, Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health (OEI-06-06-00580), July 2010.




OEI-06-07-00580                   Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 4 – Donald M. Berwick, M.D.


classify into a particular category. We further divided these 14 categories into subcategories to
provide more specificity when analyzing services within categories.

Analysis of Payments and Utilization
We reviewed 8,195 unique HCPCS codes representing the Part B services paid for during
non-Part A stays in 2008. After categorizing these codes, we conducted several types of analyses
to provide an overview of payments and utilization.

Payment analysis. We calculated the following summary statistics for each of the 14 service
categories: total Part B payments, percentage of total Part B payments, number of beneficiaries
who received a service in the category, percentage of total beneficiaries who received a service in
the category, and average Part B payments per beneficiary. For many of the highest dollar service
categories, we also identified the subcategories in which the majority of payments were made. In
addition, we examined Part B payments across places of service for each of the 14 service
categories.

States’ payment patterns. To identify potential differences in States’ payment patterns, we
computed the payment percentage for each service category within a State. For example, if a State
received $100 million in total Part B payments for services, and the category of evaluation and
management accounted for $50 million, the payment percentage of the evaluation and management
category was 50 percent. Therefore, summing the percentages across each of the 14 service
categories yielded 100 percent within a State. After computing payment percentages for each
State, we compared these rates against the national rate to identify States that had high payment
rates.

Comparative payment analysis. By accounting for the duration of beneficiary nursing home stays,
we computed a measure for comparing cost differences among service categories, States, nursing
homes, and beneficiaries. This standardizing measure, the average daily payment, identifies the
average that Medicare paid per day for services during a beneficiary’s nursing home stay. For
example, a beneficiary who receives $1,000 in Part B services during a 100-day nursing home stay
has an average daily payment of $10. To determine the national average across Part B services, we
computed an average daily payment rate for each beneficiary within our review and then averaged
these rates. To determine average daily payment across service categories, States, and nursing
homes, we first sorted beneficiaries by these groupings and then calculated average daily payments
among beneficiaries who received such services.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and Evaluation
issued by the Council of the Inspectors General on Integrity and Efficiency.




OEI-06-07-00580        Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 5 – Donald M. Berwick, M.D.


RESULTS

Medicare Paid $4.9 Billion for Part B Services During Non-Part A Stays in 2008, With Three
Service Categories Accounting for 58 Percent of the Total Payments
During non-Part A stays in 2008, Part B paid for a variety of services for 1.5 million beneficiaries
who resided in 16,059 nursing homes. Of the 14 Part B categories we reviewed, therapy services,
evaluation and management, and major and minor medical procedures together accounted for
$2.8 billion—more than half of the $4.9 billion paid by Part B. Table 1 contains payment amounts
and utilization statistics for each of the service categories. (See Appendix C for additional payment
and utilization statistics for Part B services during non-Part A stays in 2008.)

Table 1: Payment and Utilization Statistics for 14 Part B Service Categories During
Non-Part A Stays in 2008
                                                                                          Number of           Percentage of
                                                                    Total Part B                                                     Average
                                                       Part B                           Beneficiaries          Beneficiaries
 Service Category                                                   Percentage                                                    Payment per
                                                     Payment                           Who Received           Who Received
                                                                    of Payment                                                     Beneficiary
                                                                                      These Services         These Services
 Therapy services                             $1,314,988,128                 27%               731,356                    48%          $1,798
 Evaluation and management                    $1,049,333,598                 21%             1,415,945                    94%            $741
 Major and minor medical procedures             $464,983,013                 10%             1,290,463                    85%            $360
 Pathology and laboratory                       $394,283,013                  8%             1,286,796                    85%            $306
 Transportation services                        $374,453,747                  8%               339,282                    22%          $1,104
 Radiology and imaging                          $286,748,086                  6%               862,805                    57%            $332
 Dialysis services                              $264,308,170                  5%                 31,254                     2%         $8,457
 Enteral and parenteral therapy                 $224,110,762                  5%                 55,677                     4%         $4,025
 DMEPOS                                         $212,940,491                  4%               374,099                    25%            $569
 Drugs and biologicals                          $211,725,750                  4%               420,721                    28%            $503
 Endoscopy                                       $45,997,999                  1%               130,716                      9%           $352
 Oncology                                        $26,110,191                  1%                 12,614                     1%         $2,070
 Anesthesia                                      $10,271,963                 <1%                 62,789                     4%           $164
 Other                                               $381,402                <1%                  2,958                   <1%            $129
    Total                                     $4,880,636,313              100%*            1,511,974**                       —             —
 Source: OIG analysis of paid Part B services during non-Part A stays in 2008.
 * The column does not total to 100% because of rounding.
 ** The total number of unique nursing home Medicare residents who received any Part B service during non-Part A stays in 2008.



Therapy services, the highest paid service category with $1.3 billion, accounted for 27 percent of
the total Part B payment. Forty-eight percent of beneficiaries utilized at least one therapy service.
The category of therapy services includes physical therapy, occupational therapy, speech-language
pathology services, hydration and prophylactic therapy, alternative therapies (e.g., acupuncture),
and other forms of physical medicine and rehabilitation. Of these subcategories, physical therapy,
occupational therapy, and speech-language pathology services accounted for 99 percent
($1.3 billion) of the Part B payment for the therapy services category. Additionally, therapeutic
exercise, the highest paid individual HCPCS code within the therapy services category, was also
the highest paid HCPCS code among all Part B services, with $383 million in total payment.




OEI-06-07-00580                   Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 6 – Donald M. Berwick, M.D.


Evaluation and management, the second-highest paid category with $1 billion, accounted for
21 percent of the total Part B payment. Nearly all beneficiaries—94 percent—utilized at least one
service in this category. The evaluation and management category encompasses services such as
medical visits (e.g., nursing home, emergency, office or other outpatient, hospital, and home visits),
psychiatry and alcohol/drug treatment, consultations, special evaluation and management, and
preventive medicine. Of these subcategories, nursing home visits accounted for 57 percent
($593 million) of the evaluation and management category payment. Additionally, four HCPCS
codes (99307–99310), corresponding to a group of services encompassing visits lasting between
10 and 35 minutes called subsequent nursing home care, accounted for 53 percent ($553 million) of
the amount paid for this category.

Major and minor medical procedures, the third-highest paid category with $465 million, accounted
for 10 percent of the total Part B payment. Eighty-five percent of beneficiaries utilized at least one
service in this category. The category of major and minor medical procedures consists of surgical
and other medical procedures grouped according to body systems, such as the cardiovascular,
integumentary (e.g., skin), vision and hearing, musculoskeletal, and nervous systems. The vast
majority of these services involve complex and skilled procedures to repair damaged body parts,
remove malignancies, or treat dysfunctions. Of the body systems, cardiovascular ($168 million),
integumentary ($126 million), and vision and hearing ($89 million) together accounted for
83 percent of major and minor medical procedures. Furthermore, services generally provided by
podiatrists represent 21 percent ($96 million) of the amount paid for services in this category.

Three Places of Service Comprised 76 Percent of the Total Payment Made by Part B During
Non-Part A Stays in 2008
Nursing homes, outpatient hospitals, and end-stage renal disease (ESRD) treatment facilities
together made up $3.7 billion, or 76 percent of the $4.9 billion paid by Part B (see Table 2).
Nursing homes, the places of service associated with the highest overall payment, accounted for
54 percent ($2.6 billion) of the total Part B payment. Outside of nursing homes, several places of
service together accounted for the remaining 46 percent ($2.3 billion) of the total payment made by
Part B during non-Part A stays in 2008.

Table 2: Payments Across Places of Service for Part B Services During Non-Part A
Stays in 2008
 Place of Service                                                        Part B Payment                 Total Part B Percentage of Payment
 Nursing home                                                             $2,631,865,410                                                        54%
 Outpatient hospital                                                         $630,212,887                                                       13%
 ESRD facility                                                               $451,148,936                                                           9%
 Ambulance                                                                   $360,129,994                                                           7%
 Physician office                                                            $294,137,372                                                           6%
 Other*                                                                      $310,896,613                                                           6%
 Independent laboratory                                                      $202,245,101                                                           4%
     Total                                                                $4,880,636,313                                                    100%**
 Source: OIG analysis of paid Part B services during non-Part A stays in 2008.
 * Other included a variety of settings, such as the home, ambulatory surgical centers, emergency rooms, custodial care facilities, mobile units,
 intermediate care facilities, assisted living facilities, community mental health centers, and home health agencies.
 ** The column does not total to 100% because of rounding.




OEI-06-07-00580                    Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 7 – Donald M. Berwick, M.D.


Certain service categories were primarily associated with a nursing home place of service,
whereas others were primarily associated with places of service outside of a nursing home.
Most payments for the categories of enteral and parenteral therapy (98 percent), therapy services
(97 percent), and evaluation and management (67 percent) were for services rendered within
nursing homes (see Table 3). Conversely, most payments for the following service categories were
for services rendered outside of nursing homes: major and minor medical procedures (72 percent),
pathology and laboratory (92 percent), transportation services (99 percent), dialysis services
(99 percent), drugs and biologicals (95 percent), endoscopy (95 percent), oncology (99 percent),
and anesthesia (99 percent). Payments for the remaining service categories, radiology and imaging
and DMEPOS, were nearly evenly distributed between the nursing home and places outside of the
nursing home. (See Appendix D for payment statistics across Part B service categories for all
places of services during non-Part A stays in 2008.)

Table 3: Payment (in Millions) Across Places of Service for 14 Part B Service
Categories During Non-Part A Stays in 2008
                                                   Within Nursing Homes                 Outside of Nursing Homes       Total

 Service Category                                                   Percentage of                     Percentage of
                                                  Part B                                 Part B                         Part B
                                                                  Payment Within                    Payment Within
                                                Payment                                Payment                        Payment
                                                                 Service Category                  Service Category
 Therapy services                                  $1,271                        97%       $44                  3%      $1,315
 Evaluation and management                           $704                        67%      $345                 33%      $1,049
 Major and minor medical
                                                     $130                        28%      $335                 72%       $465
 procedures
 Pathology and laboratory                             $32                        8%       $362                 92%       $394
 Transportation services                              <$1                        <1%      $374               >99%        $374
 Radiology and imaging                               $149                        52%      $138                 48%       $287
 Dialysis services                                    <$1                        <1%      $264               >99%        $264
 Enteral and parenteral therapy                      $220                        98%        $4                  2%       $224
 DMEPOS                                              $114                        53%       $99                 47%       $213
 Drugs and biologicals                                $11                        5%       $201                 95%       $212
 Endoscopy                                              $2                       5%        $44                 95%         $46
 Oncology                                             <$1                        <1%       $26               >99%          $26
 Anesthesia                                           <$1                        <1%       $10               >99%          $10
 Other                                                <$1                        5%        <$1                 95%        <$1
    Total*                                         $2,632                        54%     $2,249                46%      $4,881
 Source: OIG analysis of paid Part B services during non-Part A stays in 2008.
 * These totals represent the aggregate across all service categories.



Some States Had Much Higher Payment Rates Than the National Rate for Certain Part B
Service Categories
The following States exhibited much higher payment rates: Tennessee, Minnesota, Nevada,
California, Arkansas, the District of Columbia, South Carolina, Alaska, and North Dakota (see




OEI-06-07-00580                   Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 8 – Donald M. Berwick, M.D.


Table 4). 9 For example, payments for the category of enteral and parenteral therapy in
Tennessee totaled 20 percent of Tennessee’s total Part B payment, which is 4.4 times higher than
the national rate of 4.6 percent. Possible explanations for geographic differences may include
differences in fraud, waste, and abuse or differences in the levels of patient wellness (i.e., the
degree to which patients’ care needs are defined).

Table 4: States With Higher Payment Rates Than the National Rate Across Part B
Service Categories During Non-Part A Nursing Home Stays in 2008
                                                                                                                                              State to
                                                                                                                 State      National
                                                                            Service         Total Part B                                      National
    State                                 Service Category                                                    Payment       Payment
                                                                           Payment             Payment                                     Percentage
                                                                                                                 Rate           Rate
                                                                                                                                                 Ratio
    Tennessee                  Enteral & parenteral therapy             $28,407,009       $139,698,220           20.3%           4.6%                4.4 : 1
    Minnesota                  Enteral & parenteral therapy             $10,039,756         $50,272,634          20.0%           4.6%                4.3 : 1
    Nevada                                          DMEPOS               $2,153,130        $13,745,084           15.7%           4.4%                3.6 : 1
    California                                      DMEPOS              $59,510,343       $407,222,450           14.6%           4.4%                3.3 : 1
    Arkansas                                        DMEPOS               $7,636,268         $58,557,303          13.0%           4.4%                3.0 : 1
    District of Columbia                    Dialysis services            $1,111,627          $7,159,009          15.5%           5.4%                2.9 : 1
    South Carolina                  Transportation services             $12,563,748         $58,910,790          21.3%           7.7%                2.8 : 1
    Alaska                                  Dialysis services              $246,590          $1,629,854          15.1%           5.4%                2.8 : 1
    Alaska                           Pathology & laboratory                $352,567          $1,629,854          21.6%           8.1%                2.7 : 1
    North Dakota                        Drugs & biologicals              $1,628,904         $14,208,702          11.5%           4.3%                2.7: 1
    Source: OIG analysis of paid Part B services during non-Part A stays in 2008.



On Average, Medicare Paid $16.75 per Day for Beneficiaries’ Part B Services During
Non-Part A Stays in 2008
Aggregating across all Part B services paid for and averaging across all beneficiaries during
non-Part A stays in 2008, we found that the average daily payment was $16.75 (see Table 5 on
page 9). This figure served as a reference point when comparing service categories and States.

Aggregating across service categories, dialysis services exhibited the highest average daily
payment of $49.74 during non-Part A stays in 2008. Two factors influenced the average daily
payment of any given service category: relative cost per beneficiary (or “expensiveness” of the
service category) and the duration of beneficiaries’ nursing home stays. The category of dialysis
services was the most expensive at $8,457 per beneficiary (see Table 1 on page 5). Further,
beneficiaries who received a service in this category exhibited short nursing home stays compared
to beneficiaries who received other services, potentially because of their low survival rate (the
measure of how long patients live after initial diagnosis). 10 We attribute this to the chronic nature


9
  Although Puerto Rico and the U.S. Virgin Islands exhibited unusual payment patterns for certain Part B service categories, we did not include
them in the analysis because payments for services in each territory totaled less than $50,000.
10
   As indicated in a 2007 study by the U.S. Renal Data System, the 90-day survival rates of dialysis patients are 92.1, 88.5, 83.6, and 79 percent
for patients ages 65–69, 70–79, 80–84, and over 85, respectively. However, these survival rates drop significantly by the end of the first year of
dialysis to 79.4, 72.5, 63.9, and 57.5 percent for the same age groups. U.S. Renal Data System, USRDS 2010 Annual Data Report: Atlas of
Chronic Kidney Disease and End-Stage Renal Disease in the United States, National Institutes of Health, National Institute of Diabetes and
Digestive and Kidney Diseases. Accessed at http://www.usrds.org on May 23, 2011.




OEI-06-07-00580                      Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 9 – Donald M. Berwick, M.D.


of ESRD, which requires frequent, expensive dialysis treatments (e.g., three times a week for
3 hours or more per visit) or a kidney transplant. 11

Table 5: Average Daily Payment Across 14 Part B Service
Categories During Non-Part A Nursing Home Stays in 2008
                                                                                  Average Daily Payment

 Across All Part B Services                                                                          $16.75

 Service Category
      Dialysis services                                                                              $49.74
      Oncology                                                                                       $20.77
      Enteral and parenteral therapy                                                                 $16.42
      Therapy services                                                                               $11.25
      Transportation services                                                                         $8.71
      Evaluation and management                                                                       $3.91
      DMEPOS                                                                                          $3.39
      Drugs and biologicals                                                                           $3.27
      Endoscopy                                                                                       $2.50
      Radiology and imaging                                                                           $2.04
      Major and minor medical procedures                                                              $1.77
      Pathology and laboratory                                                                        $1.52
      Anesthesia                                                                                      $1.25
      Other                                                                                           $1.06
 Source: OIG analysis of paid Part B services during non-Part A stays in 2008.



Aggregating across States, Louisiana exhibited the highest average daily payment of
$19.13 during non-Part A stays in 2008. Many of the States located along the Gulf of Mexico
and the Midwest exhibited relatively high average daily payments (see Figure 1). Conversely,
States located in the north-central part of the country exhibited relatively low average daily
payments.




11
  National Institute of Diabetes and Digestive and Kidney Diseases, Treatment Methods for Kidney Failure: Hemodialysis, December 2006.
Accessed at http://kidney.niddk.nih.gov/kudiseases/pubs/hemodialysis/ on May 23, 2011.




OEI-06-07-00580                   Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 10 – Donald M. Berwick, M.D.




Drugs and biologicals appeared the category most vulnerable to high average daily payments
among nursing homes; however, DMEPOS may be of greater concern. On average, Medicare
paid $3.27 per day during non-Part A stays in 2008 for the category of drugs and biologicals (see
Table 5 on page 9). However, of the nursing homes associated with paid for drugs and
biologicals services, 14 percent (1,247) exhibited an average daily payment greater than $9.81,
which is triple the national average (see Table 6). There may be reasonable explanations for
such high average daily payments. For example, one nursing home had an average daily
payment of $37.49; yet, upon further review, we found that the nursing home operated an onsite
dialysis unit and ESRD drugs drove the average daily payment. Such nursing home
specializations may explain high billing in a particular service type.

The 3 percent of nursing homes with average daily payments higher than triple the national
average for DMEPOS may be of greater concern. Nursing homes may exhibit high average daily
payments because of a specialization unit, such as an onsite dialysis unit, but explanations are
limited for extremely high average daily payments for DMEPOS. For example, at one nursing

OEI-06-07-00580        Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 11 – Donald M. Berwick, M.D.


home with an average daily payment of $40, there were 23 beneficiaries who received
DMEPOS. Of those, nine had average daily payments ranging from $34 to $160—higher than
the national average of $3.39. Such high average daily payments lend themselves to concerns of
potential fraud, waste, and abuse.

Table 6: Percentage of Nursing Homes That Exceeded Triple the National Average
Daily Payment Across 14 Part B Service Categories
                                                                                                                Nursing Homes That Exceeded
                                                                                              Triple the      Triple the National Average Daily
                                                                           National
                                                                                               National                               Payment
                                                                           Average
 Categories                                                                                    Average
                                                                              Daily                           Percentage of             Maximum
                                                                                                   Daily
                                                                           Payment                                 Nursing           Average Daily
                                                                                               Payment
                                                                                                                    Homes                Payment
 Across All Part B Services*                                                  $16.75              $50.25                  <1%                     $76
 Service Category * **
            Drugs and biologicals                                               $3.27              $9.81                  14%                     $71
            DMEPOS                                                              $3.39             $10.17                   3%                     $45
            Endoscopy                                                           $2.49              $7.47                   2%                     $22
            Transportation services                                             $8.71             $26.13                   2%                     $76
            Major and minor medical procedures                                  $1.77              $5.30                   1%                     $37
            Therapy services                                                  $11.25              $33.75                  <1%                     $59
            Evaluation and management                                           $3.91             $11.72                  <1%                     $47
            Pathology and laboratory                                            $1.52              $4.56                  <1%                     $14
            Radiology and imaging                                               $2.04              $6.12                  <1%                     $11
            Anesthesia                                                          $1.25              $3.76                  <1%                     $5
            Oncology                                                          $20.77              $62.31     None exceeded                        $37
            Dialysis services                                                 $49.74             $149.21     None exceeded                        $69
            Enteral and parenteral therapy                                    $16.42              $49.27     None exceeded                        $26
            Other                                                              $1.06               $3.18     None exceeded                         $2
 Source: OIG analysis of paid Part B services during non-Part A stays in 2008.
 * To provide meaningful comparisons among nursing homes, we only analyzed data for those nursing homes with more than 50 beneficiaries who
 received Part B services.
 ** To provide meaningful comparisons between service categories, we only included beneficiaries who had a nursing home stay longer than
 14 days and nursing homes that had at least 10 beneficiaries who received a service in the service category (e.g., nursing homes with at least
 10 beneficiaries who received services in the category of drugs and biologicals).




CONCLUSION

Medicare made payments totaling nearly $5 billion for Part B services provided to nursing home
residents during non-Part A stays in 2008. This analysis of utilization and payments provides an
overview of the depth and breadth of the services billed to Part B. We found significant
variation in payment and utilization among different Part B service categories, places of service,
States, and nursing homes. We also found unusual payment and utilization patterns that greatly
exceeded national norms. Such variation and unusual patterns raise concerns of potential fraud,
waste, and abuse. Therefore, services billed under Part B for nursing home residents continue to
warrant monitoring by OIG and CMS.

To facilitate such monitoring, we plan to undertake additional reviews and in-depth analyses
focusing on specific service types. Utilizing stay dates from the MDS, our data matches not only

OEI-06-07-00580                   Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 12 – Donald M. Berwick, M.D.


allow us to identify Part B services provided to beneficiaries, but also demographic information
for the nursing homes, providers, and beneficiaries associated with the claims. Such
demographic information will allow us to perform detailed reviews to detect nursing homes that
exhibit questionable billing patterns and the providers who furnish services to the residents of
these nursing homes. For example, identifying a nursing home with beneficiaries who exhibit
unusually high average daily payment rates for services may also identify providers who are
billing for unnecessary Part B services. A subsequent review of these providers’ claims would
distinguish between those who have reasonable explanations for questionable billing patterns and
those who warrant further investigation.

Additionally, we encourage CMS’s continued use of its wide range of program integrity
resources (e.g., Medicare Administrative Contractors and Recovery Audit Contractors) to
scrutinize provider and supplier billing associated with this vulnerable patient population.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-06-07-00580 in all correspondence.




OEI-06-07-00580        Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 13 – Donald M. Berwick, M.D.


APPENDIX A

Identification of Medicare Part B Services During Non-Part A Nursing Home Stays
To identify Part B services during non-Part A stays, we utilized information from four Medicare
program databases.

Minimum Data Set. The Minimum Data Set (MDS) forms the foundation of the comprehensive
assessment for all residents of long-term care facilities certified to participate in Medicare or
Medicaid. It includes information about each resident’s health, as well as admission and discharge
dates. We used the MDS (version 2.0) to identify all nursing home residents in 2008 and their
Social Security numbers (SSN), related nursing homes, and stay dates. To determine resident stay
dates between January 1 and December 31, 2008, we extracted all nursing home admission and
discharge dates for each resident. We used assessment dates as proxies for missing admission or
discharge dates according to the following assumptions:
•   Missing admission date. If the resident was in the nursing home on January 1, 2008
    (determined from subsequent assessments that the nursing homes conducted), we used the date
    of the first assessment conducted in 2007 as the admission date.
•   Missing discharge date. We defined the date of the last assessment conducted by nursing
    homes and received by OIG through March 2009 as the discharge date.

Online Survey, Certification, and Reporting System. The Online Survey, Certification, and
Reporting System (OSCAR) database contains nursing home facility demographic information, as
well as survey results from nursing home certification and complaint surveys. To obtain
information about nursing homes (e.g., facility name, address, number of beds, and certification
status), we linked the MDS facility identification numbers with the facility numbers maintained in
OSCAR.

Enrollment Database. The Enrollment Database (EDB) includes beneficiary-level data (e.g., name,
SSN, and Medicare Health Insurance Claim Number (HICN)). Using this database, we matched
SSNs contained in the MDS file to SSNs in the EDB to identify Medicare beneficiaries and their
associated HICNs. We excluded beneficiaries who had no matching SSN from further analysis.

National Claims History. We used the National Claims History (NCH), a data reporting system
that includes both Part A and Part B claims, to identify all claims allowed by Part B during
non-Part A stays. To identify claims associated with Medicare beneficiaries with nursing home
stays (identified earlier), we first matched their HICNs to the claims data. To identify claims for
services provided only during non-Part A stays, we then removed all claims for Part A paid skilled
nursing facility (SNF) stays and inpatient hospital stays by matching the stay dates from the MDS
to the SNF and inpatient hospital claims in the NCH. The resulting dataset comprised all Part B
claims for which billing was allowed for beneficiaries during non-Part A stays in 2008.


OEI-06-07-00580        Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 14 – Donald M. Berwick, M.D.


APPENDIX B

Categorization of Medicare Part B Services
To facilitate analysis of all Part B services utilized by beneficiaries during non-Part A nursing
home stays, we developed a comprehensive and systematic categorization of services. This
categorization organized the more than 14,000 services and their related Healthcare Common
Procedure Coding System (HCPCS) codes into 14 broad service categories. In addition, each
category includes subcategories for further detailed analysis across service types. For example,
the evaluation and management category includes subcategories of office visits, consultations, or
alcohol/drug treatment. To develop the categorization, we adapted three coding systems used by
the Centers for Medicare & Medicaid Services (CMS) for billing, payment, and analysis:
Current Procedural Terminology (CPT), Berenson-Eggers Type of Service (BETOS) system, and
HCPCS.

1. CPT codes are developed, maintained, and copyrighted by the American Medical Association
   (AMA) and are used to identify services and procedures provided by physicians and other
   health care professionals.
2. The BETOS coding system covers all HCPCS codes; CMS uses it to analyze the growth in
   Medicare expenditures.
3. HCPCS Level I numerical codes are identical to CPT codes and are used by CMS when
   services and procedures involve Medicare beneficiaries. HCPCS Level II codes are
   alphanumeric codes, consisting of a letter followed by four numbers. These codes, which CMS
   developed, represent products, supplies, and services used outside a physician’s office
   (e.g., ambulance services and durable medical equipment).

We began the categorization by modeling some of the service categories after AMA’s CPT code
delineations: evaluation and management, anesthesia, surgery (which we modified and renamed
major and minor medical procedures), radiology and imaging, pathology and laboratory, and
medicine (which we modified and renamed therapy services). We then added eight categories—
many of which were derived from the BETOS system and others that we created for this review—
representing a variety of services that allowed for a detailed description of Part B services:
endoscopy; oncology; dialysis services; transportation services; drugs and biologicals; enteral and
parenteral therapy; durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS);
and other. Listed below are the 14 service categories, including an other category for codes that do
not readily fit into the previous 13 categories, and the number of HCPCS codes associated with
each service category during 2008:

1.   Evaluation and management comprised 240 HCPCS codes and includes services occurring
     during medical visits. These may include visits to physician offices, outpatient facilities,
     emergency rooms, nursing homes, etc.

2.   Anesthesia comprised 213 HCPCS codes relating to anesthesia services necessary for a wide
     range of surgical and medical procedures. These services are organized by body location,
     such as upper body, lower body, and systemic.


OEI-06-07-00580        Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 15 – Donald M. Berwick, M.D.


3.    Major and minor medical procedures comprised 3,166 HCPCS codes for services ranging
      from minor surgery (e.g., nail debridement) to organ transplants. We sorted the services in
      this category by the body systems in which the services were associated, such as
      integumentary (i.e., skin), musculoskeletal, and respiratory.

4.    Endoscopy comprised 387 HCPCS codes related solely to endoscopy and related services,
      sorted primarily by the related body systems.

5.    Oncology comprised 102 HCPCS codes and includes cancer treatments, such as radiation
      therapy and chemotherapy.

6.    Dialysis services comprised 16 HCPCS codes and includes all nonsurgical services related to
      the provision of hemodialysis and peritoneal dialysis.

7.    Radiology and imaging comprised 587 HCPCS codes and includes all imaging modalities
      and related supplies.

8.    Pathology and laboratory comprised 1,091 HCPCS codes arranged by type of testing
      (e.g., therapeutic drug testing and urinalysis).

9.    Transportation services comprised 18 HCPCS codes sorted by type and purpose of transport
      (e.g., nonemergency transport, air ambulance, and advanced life support).

10.   Drugs and biologicals comprised 556 HCPCS codes divided by type of drug or biological,
      route of administration, purpose of administration, and dosage.

11.   Therapy services comprised 117 HCPCS codes and includes those services subject to
      consolidated billing requirements regardless of Part A coverage, such as physical therapy,
      occupational therapy, and speech-language pathology services, as well as other therapies,
      such as acupuncture.

12.   Enteral and parenteral therapy comprised 36 HCPCS codes divided by feeding type
      (i.e., enteral or parenteral). All codes associated with these services fall under this category,
      including pumps and supplies, as they can only be utilized for these specific services.

13.   DMEPOS comprised 1,589 HCPCS codes, including a variety of products (e.g., crutches and
      pacemakers).

14.   Other comprised 76 HCPCS codes and includes all services not in another category, such as
      miscellaneous codes that end in 99, the Not Otherwise Classified codes.




OEI-06-07-00580         Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
Page 16 – Donald M. Berwick, M.D.


APPENDIX C
Table C-1: Payment and Utilization Statistics for 14 Medicare Part B Service Categories
and Their Subcategories During Non-Part A Stays in 2008*
                                                                                Number of       Percentage of
                                                          Total Part B                                              Average
                                                                         Beneficiaries Who   Beneficiaries Who
Service Category                        Part B Payment    Percentage                                             Payment per
                                                                           Received These      Received These
                                                          of Payment                                              Beneficiary
                                                                                  Services            Services
Therapy services                         $1,314,988,128          27%              731,356                 48%         $1,798
Physical therapy, occupational
therapy, and speech-language
pathology services **                    $1,299,187,587         26.62             674,006                44.54        $1,928
Hydration, therapeutic,
prophylactic                                $14,142,113          0.29             126,311                 8.35          $112
Alternative therapies                        $1,255,790          0.03                5,229                0.35          $240
Other physical medicine and
rehabilitation                                $263,954           0.01                 255                 0.02        $1,035
Evaluation and management                $1,049,333,598          21%             1,415,945                94%           $741
Nursing home visits                        $592,916,446         12.15            1,302,679               86.09          $455
Psychiatry and alcohol/drug
treatment                                  $177,587,963          3.64             365,799                24.17          $485
Emergency room visits                      $100,104,236          2.05             329,957                21.80          $303
Office visits or other outpatient
visits                                      $95,877,111          1.96             494,338                32.67          $194
Consultations                               $48,098,605          0.99             314,471                20.78          $153
Hospital visits                             $16,606,655          0.34              59,380                 3.92          $280
Home visits                                  $8,384,883          0.17              51,193                 3.38          $164
Special evaluation and
management services                          $5,647,600          0.12                1,517                0.10        $3,723
Preventive medicine services                 $2,902,604          0.06              26,339                 1.74          $110
Care plan oversight services                  $877,306           0.02                5,806                0.38          $151
Prolonged services                            $236,244          <0.01                2,687                0.18           $88
Major and minor medical
                                           $464,983,013          10%             1,290,463                85%           $360
procedures
Cardiovascular system                      $168,377,920          3.45            1,164,323               76.94          $145
Integumentary system                       $126,353,521          2.59             803,733                53.11          $157
Eye and ocular adnexa                       $88,995,776          1.82             381,048                25.18          $234
Musculoskeletal system                      $21,382,578          0.44              64,989                 4.29          $329
Nervous system                              $19,092,286          0.39              31,783                 2.10          $601
Urinary system                              $12,871,508          0.26              65,632                 4.34          $196
Digestive system                            $10,402,129          0.21              25,409                 1.68          $409
Respiratory system                           $8,348,420          0.17              44,709                 2.95          $187
Auditory system                              $6,235,558          0.13              89,904                 5.94           $69
Male genital system                          $1,121,210          0.02                1,738                0.11          $645
Female genital system                         $941,551           0.02                4,614                0.30          $204
Hemic and lymphatic systems                   $515,118           0.01                1,336                0.09          $386
General                                       $187,754           0.00                1,231                0.08          $153
Endocrine system                              $151,870           0.00                 196                 0.01          $775




OEI-06-07-00580                     Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
 Page 17 – Donald M. Berwick, M.D.


Table C-1 (continued)
                                                                              Number of       Percentage of
                                                        Total Part B                                              Average
                                                                       Beneficiaries Who   Beneficiaries Who
 Service category                     Part B Payment    Percentage                                             Payment per
                                                                         Received These      Received These
                                                        of Payment                                              Beneficiary
                                                                                Services            Services
 Pathology and laboratory                $394,283,013           8%             1,286,796                85%           $306
 Chemistry                               $113,034,126          2.32             992,918                65.62          $114
 Organ or disease oriented
 panels                                   $66,282,999          1.36            1,120,218               74.03           $59
 Hematology and coagulation               $65,504,531          1.34            1,087,294               71.85           $60
 Microbiology                             $52,014,953          1.07             703,114                46.46           $74
 Specimen procurement and
 other lab procedures                     $39,719,213          0.81             695,837                45.98           $57
 Therapeutic drug assays                  $20,704,983          0.42             275,428                18.20           $75
 Surgical pathology                       $13,110,663          0.27              79,319                 5.24          $165
 Transfusion medicine                      $9,558,217          0.20              27,558                 1.82          $347
 Urinalysis                                $7,376,217          0.15             670,406                44.30           $11
 Immunology                                $3,566,365          0.07              86,812                 5.74           $41
 Cytopathology                             $1,858,331          0.04              15,337                 1.01          $121
 Drug testing                               $840,328           0.02                6,414                0.42          $131
 Cytogenetic studies                        $377,898           0.01                 999                 0.07          $378
 Other procedures                           $298,535           0.01                9,857                0.65           $30
 Transportation services                 $374,453,747           8%              339,282                 22%         $1,104
 Basic life support                      $197,279,881          4.04             235,926                15.59          $836
 Air ambulance                           $105,453,234          2.16             268,504                17.74          $393
 Transportation unit charges              $65,337,634          1.34             336,973                22.27          $194
 Advanced life support                     $4,877,542          0.10              13,347                 0.88          $365
 Other ambulance                           $1,499,312          0.03                1,121                0.07        $1,337
 Radiology and imaging                   $286,748,086           6%              862,805                 57%           $332
 Radiology                               $266,513,508          5.46             843,767                55.76          $316
 Nuclear medicine                         $11,870,967          0.24              26,513                 1.75          $448
 Ultrasound                                $7,912,786          0.16              82,264                 5.44           $96
 Ultrasound guidance                        $450,826           0.01                8,098                0.54           $56
 Dialysis services                       $264,308,170           5%               31,254                  2%         $8,457
 Miscellaneous dialysis
 procedures                              $233,599,442          4.79              28,622                 1.89        $8,162
 End-stage renal disease
 services                                 $29,054,327          0.60              26,086                 1.72        $1,114
 Other dialysis modality                   $1,208,890          0.02                 220                 0.01        $5,495
 Hemodialysis                               $421,458           0.01                1,672                0.11          $252
 Enteral and parenteral therapy          $224,110,762           5%               55,677                  4%         $4,025
 Enteral formulae and enteral
 medical supplies                        $223,584,867          4.58              55,650                 3.68        $4,018
 Parenteral nutrition solutions
 and supplies                               $525,895           0.01                  35                 0.00       $15,026
 Durable medical equipment,
 prosthetics, orthotics, and             $212,940,491           4%              374,099                 25%           $569
 supplies
 Medical supplies and surgical
 dressings                                $82,401,913          1.69             127,697                 8.44          $645
 Durable medical equipment                $56,776,856          1.16             194,421                12.85          $292



 OEI-06-07-00580                  Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
 Page 18 – Donald M. Berwick, M.D.


Table C-1 (continued)
                                                                                              Number of             Percentage of
                                                                    Total Part B                                                                 Average
                                                                                       Beneficiaries Who         Beneficiaries Who
 Service category                          Part B Payment           Percentage                                                                Payment per
                                                                                         Received These            Received These
                                                                    of Payment                                                                 Beneficiary
                                                                                                Services                  Services
 Orthotic devices                               $38,647,969                   0.79                  104,649                       6.92                  $369
 Medical supplies and surgical
 dressings                                      $35,113,752                   0.72                   14,680                       0.97                 $2,392
 Drugs and biologicals                         $211,725,750                    4%                   420,721                       28%                   $503
 Drugs and biologicals
 administration                                $169,857,996                   3.48                  117,280                       7.75                 $1,448
 Chemotherapy drugs                             $26,032,007                   0.53                     8,852                      0.58                 $2,941
 Vaccines and toxoids                             $6,537,200                  0.13                  306,501                      20.25                   $21
 Immunization administration for
 vaccines                                         $6,383,368                  0.13                  326,012                      21.54                   $20
 Nonprescription drugs                            $1,457,997                  0.03                     8,725                      0.58                  $167
 Oral medications                                   $747,470                  0.02                       673                      0.04                 $1,111
 Pharmacy fees                                      $699,934                  0.01                   10,116                       0.67                   $69
 Endoscopy                                      $45,997,999                    1%                   130,716                         9%                  $352
 Digestive system                               $25,053,556                   0.51                   37,679                       2.49                  $665
 Urinary system                                 $12,137,564                   0.25                   17,614                       1.16                  $689
 Eye and ocular adnexa                            $4,892,780                  0.10                   71,526                       4.73                   $68
 Respiratory system                               $2,710,009                  0.06                   11,197                       0.74                  $242
 Musculoskeletal system                             $651,917                  0.01                       295                      0.02                 $2,210
 Female genital                                     $514,498                  0.01                       667                      0.04                  $771
 Oncology                                       $26,110,191                    1%                    12,614                         1%                 $2,070
 Radiation oncology                             $22,223,359                   0.46                     4,840                      0.32                 $4,592
 Chemotherapy administration                      $3,886,832                  0.08                     8,500                      0.56                  $457
 Anesthesia                                     $10,271,963                   <1%                    62,789                         4%                  $164
 Upper body                                       $7,339,343                  0.15                   43,844                       2.90                  $167
 Lower body                                       $2,432,080                  0.05                   17,412                       1.15                  $140
 Systemic                                           $500,540                  0.01                     4,215                      0.28                  $119
 Other                                              $381,402                  <1%                      2,958                      <1%                   $129
    Total                                    $4,880,636,313                 100%               1,511,974***                          —                     —
 Source: Office of Inspector General analysis of paid Part B services during non-Part A stays in 2008.
 * We only included those subcategories with total payments greater than $100,000.
 ** Physical therapy, occupational therapy, and speech-language pathology services include all services subject to consolidated billing requirements
 regardless of Part A coverage.
 *** The total number of unique nursing home residents who received any Part B service during non-Part A stays in 2008.




 OEI-06-07-00580                     Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
         Page 19 – Donald M. Berwick, M.D.


APPENDIX D
Table D-1: Payment (In Millions) Across Places of Service For 14 Medicare Part B Service
Categories During Non-Part A Stays in 2008
                                                                  End-Stage Renal
                                 Nursing         Outpatient               Disease                               Physician        Independent
 Service Category                                                                            Ambulance                                                  Other*           Total
                                  Home            Hospital              Treatment                                  Office          Laboratory
                                                                           Facility
                                   $1,271                 $20                      $13                   $0              $5                 <$1              $7        $1,315
 Therapy services
                                    96.6%                1.5%                       1%                  0%             <1%                  <1%           0.5%          100%
 Evaluation and                      $704                $118                      $52                 <$1              $96                 <$1            $80         $1,049
 management                         67.1%              11.2%                      4.9%                <1%             9.1%                  <1%           7.6%          100%
 Major and minor                     $130                $186                      <$1                 <$1              $93                   $9           $46           $465
 medical procedures                   28%              40.1%                      <1%                 <1%           20.1%                    2%           9.9%          100%
 Pathology and                         $32               $131                        $1                <$1               $9                $193            $28           $394
 laboratory                          8.1%              33.2%                      <1%                 <1%             2.3%               48.9%            7.1%          100%

 Transportation                        <$1                $12                        $0               $360             <$1                    $0             $2          $374
 services
                                      <1%                3.2%                       0%              96.2%              <1%                   0%            <1%          100%
 Radiology and                       $149                 $83                      <$1                   $0             $26                 <$1            $29           $287
 imaging                            51.8%              28.9%                      <1%                   0%            9.2%                  <1%            10%          100%
                                       <$1                  $4                    $259                   $0            <$1                    $0           <$1           $264
 Dialysis services
                                      <1%                1.6%                     98%                   0%             <1%                   0%            <1%          100%
 Enteral and                         $220                 <$1                      <$1                   $0              $0                   $0             $4          $224
 parenteral therapy                 98.1%                <1%                      <1%                   0%              0%                   0%           1.8%          100%
 Durable medical                     $114                   $1                       $1                <$1             <$1                    $0           $97           $213
 equipment,
 prosthetics, orthotics,            53.3%                <1%                      <1%                 <1%              <1%                   0%         45.6%           100%
 and supplies
                                       $11                $24                     $124                 <$1              $45                 <$1              $8          $212
 Drugs and biologicals
                                       5%              11.5%                    58.6%                 <1%           21.3%                   <1%           3.6%          100%
                                        $2                $30                      <$1                   $0              $7                   $0             $6           $46
 Endoscopy
                                     4.7%              65.5%                      <1%                   0%          15.7%                    0%            14%          100%
                                       <$1                $14                      <$1                   $0             $11                   $0             $1           $26
 Oncology
                                      <1%              54.5%                      <1%                   0%          42.5%                    0%           2.8%          100%
                                       <$1                  $7                       $0                  $0            <$1                    $0             $3           $10
 Anesthesia
                                      <1%              69.2%                        0%                  0%             <1%                   0%            30%          100%
                                       <$1                <$1                      <$1                   $0            <$1                  <$1            <$1            <$1
 Other
                                     4.8%              31.4%                      22%                   0%          34.3%                   <1%           7.3%          100%
                                   $2,632                $630                     $451                $360            $294                 $202           $311         $4,881
     Total
                                    53.9%              12.9%                      9.2%               7.4%             6.0%                 4.1%           6.4%          100%
 Source: Office of Inspector General analysis of paid Part B services during non-Part A stays in 2008.
 * Other included a variety of settings, such as the home, ambulatory surgical centers, emergency rooms, custodial care facilities, mobile units, intermediate care facilities,
 assisted living facilities, community mental health centers, and home health agencies.




         OEI-06-07-00580                      Payments for Medicare Part B Services During Non-Part A Nursing Home Stays in 2008
